No. __________
IN THE SUPREME COURT OF THE UNITED STATES
DANIEL T. SILVERIA, Petitioner,
v.
STATE OF CALIFORNIA, Respondent.
_________________
PETITION FOR WRIT OF CERTIORARI
TO THE CALIFORNIA SUPREME COURT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner, through counsel, asks leave to ﬁle the attached Petition for a Writ
of Certiorari without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in the
following court(s): California Supreme Court, No. S062417, Santa Clara County Superior
Court, No. 155731.
Petitioner’s afﬁdavit or declaration is not attached because the court below
appointed counsel in the current proceeding. The appointment was made under the

1

following provision of law: California Penal Code section 1240. A copy of the Order of
appointment is appended.
Dated: December 16, 2020.
Respectfully Submitted,
MARY K. McCOMB
California State Public Defender
/s/
TIMOTHY J. FOLEY*
Senior Deputy State Public Defender
*Counsel of Record
OFFICE OF THE STATE PUBLIC
DEFENDER
770 L Street, Suite 1000
Sacramento, CA 95814
Tim.foley@ospd.ca.gov
Tel: (916) 322-2676
Fax: (916) 327-0459
Counsel for Petitioner Silveria

2

'TTrE'ff'
JAN 2 4

2001

Frederick K. Ohlrich Glerk

No. 5062417

IN THE SUPREME COURT OF CALIFORNIA

THE PEOPLE, Respondent,
v

JOHN RAYMOND TRAVIS,
Appellants.

DANIEL TODD SILVERIA

ANd

Upon request of appellant for appointment of counsel, the State Public
Defender is hereby appointed to represent appellant Daniel Todd Silveria for the

direct appeal in the above automatic appeal now pending in this court.

WERDEGAR, J.

.i.ctrrrg

ChiefJustice

